   LEGAL SERVICES
     CORPORATION


          Office of
     Inspector General




=11
 11=
Semiannual Report to the Congress
April 1, 2009 - September 30, 2009


          www.oig.lsc.gov
                                                                                                  Logol 5eIvices CoIpot . _
                                                                                                  Arner1a's Part.ner For Equal Justice

 ii!bLSC

                                                                                  November 23, 2009



                            The Honorable Tom Harkin, Chairman
_nt                         Committee on Health, Education, Labor and Pensions
Helaine M, Barnett
                            United States Senate
IIOIrd of Directors
Frank B.. strickland
                            644 Dirksen Senate Office Building
AtlantJ, GA                 Washington, D.C. 20510
Chillfm#n



                            Dear Chairman Harkin:
JonaM C. Chlles
Ultle Rock, Nt                     The Office of Inspector General of the Legal Services Corporation (LSC) has
Thomas A. Fuentes           completed its Semiannual Report for the period April 1,2009 to September 30,2009.
Lake Forest. CA
                            We are transmilling the Repol1 to Congress as required by law, along with this
Herbert S. Garten           Management Response containing additional information. The LSC Board of
BaltImOre, MO
                            Directors (Board) concurs with the presentation of statistics in Tables 1, II and ill of
Davod Hall
Ilostcn, MA
                            the Report.
ThomasR._
ChlcaQo, It                          Congress entrusts LSC with a dual mission: to promote equal access to
Laune Hlkva
                            justice and to provide high-quality civil legal assistance to low-income Americans.
Evanston, Il                In fulfillment of that mission, LSC funds 137 nonprofit programs with 918 offices
Bernia! Phillips·JacIcson   serving every Congres ional district in the nation.
Buffalo, NY

sarah M. Singleton                  The Board continues to work toward the implementation and testing of all
Santa Fe, NM
                            recommendations of the Government Accountability Office (GAO) regarding
                            governance, oversight, and internal controls. In continuing these efforts, the Board
                            has had the assistance of and complete cooperation from the Corporation's
                            management. On October 27, in testimony before the Subcommittee on Commercial
                            and Administrative Law of the House Commillee on the Judiciary, Susan Ragland of
                            the Government AccountabJiity Office credited LSC with making good progress on
                            all recommendations of the two GAO reports, saying in part,

                                   The improvements thai LSe has made in its governance and accountability
                                   provide a goodfoulltUllionfor completing implementation of the elemell/s
                                   needed for a strong program ofgovernance and internal controls.




                                                                                                  3333 K Street, NW 3~ Floor
                                                                                                  Washington, DC 20007·3522
                                                                                                  Phone 202.295,1500 Fax 202.337.6797
                                                                                                  ~.Isc.gov
LSCBoardSARResponse
 ovember 23, 2009
Page 2 of3


        As regards the new Office of In pector General (OIG) audit reports issued
during the reporting period, LSC has taken the following actions:

        On the Audit of Selected Internal Controls at Legal Aid of NorthWest Texas
(NWTexas), LSC has recently concluded a questioned cost proceeding with NW
Texas, in which the program has agreed to use private funds to pay for the cost of
natural stone used in the construction of its new building, amounting to
approximately $188,000. NWTexas has supplied the necessary supporting
documentation regarding the expenditure of $41,195 for a consultant contract that
was also questioned in this proceeding and LSC informed the program in a letter
dated September 16 that the costs are allowed. AU documentation and follow-up
instructions that LSC issued to the program regarding both of these matters have
been forwarded to the OIG for a closeout of this recommendation.

        Based on recommendations from the Audi t of Legal Services Corporation's
Consultant Contracts, LSC has made changes to its practices and to its
Administrative Manual to ensure that contracting policy and procedures are
consistent and that all contracts comply with the procedures. Training for staff
involved in the contracting policy has been completed, and documentation of all
changes in practice and procedure has been submitted to the OIG. Any additional
documentation to close these recommendations will be promptly provided.

       With regard to audits that have been open since the last reporting period,
progress is as follows:

        On the issue of classification of consultants as temporary employees, the
matter is still under review by management and the Board with the assistance of
outside counsel. While Management had anticipated the resolution of this issue by
September 30,2009, work on the issue is ongoing. The OIG will be kept fully and
currently informed until final resolution.

        On the issue of internal controls at Legal Aid and Defender Association
(Detroit), the questioned cost issue was bifurcated, with one portion resolved and
the information technology contract matter pending. A focused visit to the grantee
was conducted on September 21 by the Office of Compliance and Enforcement and a
determination letter has been sent to the program.

        On the is ue of internal controls at California Indian Legal Services (CILS),
the grantee has stated that the costs of all unu ed hotel rooms have been moved to
non-LSC funds. LSC has issued a final determination letter to the grantee covering
all remaining questioned costs. Cn..S appealed our determination on October 30, and
the President of LSC has 30 days to make a final ruling on the matter. The OIG will
be promptly notified when the proceedings are concluded.
LSCBoardSARResponse
November 23. 2009
Page 3 of3


       On the issue of internal control at Legal Services New York City, all
recommendations have been implemented and we are awaiting an update of the
grantee's accounting manual to document proper distribution of indirect costs. A
final manual is expected in December.

        The Board and LSC management continue to appreciate the work of the OIG
and. in particular, the efforts of LSC Inspector General Jeffrey E. Schanz.

        We thank you and the Congress for the bipartisan support provided to LSC.
Due to the ongoing justice gap in America. as recently documented in an updated
and expanded version of our 2005 report. it is more important than ever to increase
both private and public funding for civil legal assistance. Your support and
leadership has been an important element in our success in building federal funding.

        Equally important, of course, is the proper use of the funds entrusted to our
stewardship. We consider that stewardship to be a central mission of the LSC Board
and LSC management. We will keep Congres apprised of the progress made in
strengthening internal financial controls and grants oversight.

      If you have any questions or desire further information, please contact John
Constance, Director, Government Relations and Public Affairs, at 202-295-1611.

                                             Sincerely,




                                             Frank B. Strickland
                                             Chairman
   TO THE BOARD OF DIRECTORS OF THE LEGAL SERVICES
                     CORPORATION
          AND TO THE UNITED STATES CONGRESS

          A MESSAGE FROM THE INSPECTOR GENERAL


I am pleased to submit this report on the activities and
accomplishments of LSC’s Office of Inspector General (OIG) for the
period April 1, 2009 through September 30, 2009.

We continued to focus significant audit efforts on reviewing the
adequacy and effectiveness of internal controls at LSC-funded
grantees. An audit of one grantee found questioned costs of over
$229,000 and identified concerns as to whether proper actions had
been taken to protect LSC’s interest in a building constructed
predominantly with LSC’s funds. Audits are underway at five other
grantees.

We have also focused audit attention on key areas of the
corporation’s management and administration.             This period we
reported on LSC’s use of consultant contracts, identifying a number of
issues with respect to inadequate adherence to controls and to
internal policies and procedures. We also reported on a significant
issue of possible misclassification of contractors for tax purposes, with
concomitant potential liability for fines, penalties, and other costs.
We found this a matter of particular concern: despite a history going
back over 15 years of questions or concerns being raised about this
practice by LSC’s legal office and the OIG (the matter was also
identified as a reportable finding in the most recent corporate financial
statement audit), LSC management continued the practice without
taking effective action to resolve the issue. In their response to our
report, management indicated that they now intend to change the
questioned classification practice as of the close of the current
reporting period.

As part of our oversight role with respect to the grantee audit process,
the OIG also conducts quality assurance reviews of the work of
selected grantees’ independent public accountants. During the period
we issued two such audit service review (ASR) reports.

The OIG opened 18 new investigations, and closed 24 investigations
this reporting period. A conviction was obtained in a case involving a
grantee employee who had committed fraud against the program and
its clients over a several year period.
As part of our emphasis on preventive efforts we launched a new
Fraud Awareness Briefing Program for grantees, we continued to
conduct on-site fraud vulnerability assessments, and we developed
and distributed a guide on how to prevent computer laptop thefts. Our
recent efforts to increase awareness of the OIG Hotline and to
improve Hotline operations proved highly successful with significant
increases in both the number and quality of Hotline calls as compared
with previous periods.

I continue to be impressed by the ability and dedication of the OIG
staff and the way they have responded to the challenges presented to
them. I am very gratified at the contributions we have been able to
make, and am committed to continuing to do all that we can to help
improve and protect LSC's programs.

I would like to express my deep appreciation to the Board of
Directors, to LSC management, and to the Congress, for their support
of the important work of this office.

Sincerely,


UC'~
lJi!h. ;Chanz .
Inspector General
October 30, 2009
                                    TABLE OF CONTENTS

OFFICE OF INSPECTOR GENERAL OVERVIEW...............................................1

AUDITS.................................................................................................................3
   Audit of Selected Internal Controls at Legal Aid of NorthWest Texas ............3
   Audit of Legal Services Corporation’s Consultant Contracts .........................4
   Peer Review ..................................................................................................6
   FY 2009 Corporate Audit ...............................................................................6
   Independent Audits of Grantees ....................................................................8
   Follow-up Process .........................................................................................8
   Review of Grantees’ Annual Audit Reports: IPA Audit Findings ....................9
   Summary of Findings Reported in Grantee Financial Statement Audits ........9
   Types of Findings Referred to LSC Management for Follow-up ....................9

INVESTIGATIONS..............................................................................................10
    Former Program Employee Convicted.........................................................10
    Grantee Improperly Accepted Attorneys’ Fees ............................................10
    Proactive and Preventive Initiatives .............................................................11
    Fraud Awareness Briefing Program.............................................................11
    Fraud Vulnerability Assessments.................................................................12
    Identity Theft ................................................................................................12
    Preventing Laptop Computer Theft..............................................................13
    Hotline .........................................................................................................13

LEGAL REVIEWS...............................................................................................15
   Review of Proposed Legislation, Regulations and Policy ............................15
   Litigation Activities .......................................................................................16
   Other Activities.............................................................................................16

OTHER OIG ACTIVITIES ...................................................................................17
   Congressional Requests..............................................................................17
   Board of Directors Support ..........................................................................18
   Information Services Contracting.................................................................18
   Professional Assistance...............................................................................18
   GAO Support and Coordination ...................................................................18

TABLE I - AUDIT REPORTS ISSUED
 for the Period Ending September 30, 2009.......................................................19

AUDIT SERVICE REVIEWS ISSUED
 for the Period Ending March 31, 2009 ..............................................................19
                              TABLE OF CONTENTS
                                           (continued)


TABLE II - Audit Reports Issued with Questioned Costs
 for the Period Ending September 30, 2009.......................................................20

TABLE III - Audit Reports Issued with Funds to Be Put to Better Use
 for the Period Ending September 30, 2009.......................................................21

TABLE IV - Audit Reports Issued Before This Reporting Period
 For Which No Management Decision Was Made
 By The End Of The Reporting Period ...............................................................22

TABLE V - Index to Reporting Requirements of the Inspector General ..............23
       OFFICE OF INSPECTOR GENERAL OVERVIEW

The LSC Office of Inspector General operates under the Inspector General Act of
1978, 5 U.S.C. App. 3. In 1988, Congress amended the IG Act and required
LSC and about 30 other, mostly smaller, federally funded entities to establish
independent Offices of Inspector General.

The OIG has two principal missions: (1) to assist management in identifying ways
to promote economy and efficiency in the activities and operations of LSC and its
grantees; and (2) to prevent and detect fraud and abuse. Thus, the OIG assists
management in fostering effective operations, in identifying and overcoming
obstacles to good program management, and in preventing future problems. The
OIG also identifies and reports on current problems.

The OIG's primary tool for achieving these missions is objective and independent
fact-finding, performed through financial and other types of audits, evaluations
and reviews, and through investigations into allegations of wrongdoing. Its fact-
finding activities enable the OIG to develop recommendations to LSC, Congress,
and grantee management for actions or changes that will correct problems,
better safeguard the integrity of funds, improve procedures, and otherwise
increase the economy, efficiency and effectiveness of LSC programs.

The OIG is also tasked with ensuring the quality of audits of LSC and its
grantees, conducted by independent public accountants, and with reviewing
proposed and existing regulations and legislation affecting the operations and
activities of LSC and the programs it funds.

In addition, since 1996 LSC's annual appropriations have directed that grantee
compliance with legal requirements be monitored through the annual grantee
audits conducted by independent public accountants, under guidance developed
by the OIG. Congress has also specified that the OIG has authority to conduct
its own reviews of grantees.

The OIG is headed by the Inspector General, who reports to and is under the
general supervision of the LSC Board of Directors. The IG has broad authority to
manage the OIG, including setting OIG priorities and activities, and to hire OIG
personnel and contractors.

To ensure objectivity, the IG Act grants the LSC IG independent authority to
determine what audits, investigations, and other reviews are performed, and
empowers the IG to: gain access to all documents needed for OIG reviews;
publish findings and recommendations based on OIG reviews; and report OIG
findings and recommendations to the LSC Board of Directors and to Congress.



                                       1
The IG Act also prohibits LSC from assigning to its IG any of LSC’s own
"program operating responsibilities." This means that the OIG does not perform
functions assigned to LSC by the Legal Services Corporation Act, 42 U.S.C.
§§2996 et seq., other than those transferred to the OIG under the IG Act and
those otherwise assigned by Congress, for example in LSC’s annual
appropriations acts.

The IG reports serious problems to the LSC Board of Directors and must also
report to appropriate law enforcement authorities when, through audit,
investigation, or otherwise, the IG has found that there are reasonable grounds to
believe that a crime has occurred. The OIG is not an "arm" of the Congress, as
is the Comptroller General, but is required by law to keep the Congress informed
through semiannual reports and other means. The IG also provides periodic
reports to the Board and management of LSC and, when appropriate, to the
boards of directors and management of LSC grantees. Some of these reports
will be specific (e.g., an audit of a particular grantee or an investigation of a theft
or embezzlement), while others will be of broader application or of more general
interest to management.

To be effective, the OIG works cooperatively with the Board and management,
seeks their input prior to choosing topics for OIG review, and keeps them
informed of OIG activities. Within their different statutory roles, the OIG and LSC
management share a common commitment to improving the federal legal
services program and increasing the availability of legal services to the poor.




                                          2
                                    AUDITS

In this reporting period, the OIG issued two significant audit reports and one peer
review report. In addition the OIG initiated an audit of LSC’s Technology
Initiative Grant program and is continuing work on five grantee audits. The
corporate audit firm for fiscal year 2009 was selected and the audit is in its early
stages. Members of the audit staff provided substantial assistance in connection
with an ongoing OIG investigation.

The OIG, in fulfilling its responsibility for overseeing the independent public
accountant (IPA) audits performed at each grantee, reviewed 116 IPA reports
received during the period and conducted two Audit Service Reviews (ASRs).
ASRs are designed to ensure that the work conducted by the IPAs is in
accordance with the instructions issued by this office and determine whether the
work meets applicable professional standards. The OIG delayed implementing a
requirement for IPAs to expand reporting on grantee internal control systems.
The delay was necessary for the OIG to develop additional guidance for grantees
and to allow time for grantees to implement the guidance before the IPAs
conducted audits to satisfy the expanded reporting requirement.             The
requirement also may be affected by legislation pending before Congress that
would modify the current auditing requirements. (The OIG provided extensive
comments on this legislation.)


Audit of Selected Internal Controls at Legal Aid of NorthWest Texas


The OIG assessed the adequacy of selected internal controls in place at Legal
Aid of NorthWest Texas (LANWT) related to certain of its operations and
oversight activities and reviewed specific issues relating to the construction of the
grantee’s new building and a consulting contract entered into by the grantee’s
board of directors. The OIG found that the LANWT incurred costs of over
$188,000 to pay for decorative stone imported from Italy that was used in the
construction of its new headquarters building. The OIG questioned whether the
stone was a reasonable and necessary expenditure of LSC funds. The OIG also
found that three payments to a consultant totaling over $41,000, using LSC
funds, were not fully supported. In addition, the OIG found that: the grantee had
not taken the necessary actions to establish LSC’s reversionary interest in its
newly constructed building; the accounting manual did not address all required
items and needed to be updated; required financial information provided to the
grantee’s board of directors did not contain sufficient explanatory material to help
board members interpret the data received; and some written minutes of board
meetings and audit committee meetings for 2008 were not available during our
audit.



                                         3
The OIG questioned costs totaling over $229,000 and recommended that the
grantee: (1) ensure that no LSC funds are used for the decorative stone;
(2) establish LSC’s interest in the new building; (3) update the accounting manual
to include policies and procedures for internal reporting and budgeting as well as
for contracting with consultants; and (4) adequately document board of directors
meetings.

LANWT management disagreed with the findings and recommendations related
to the imported Italian stone and the consulting contract, and disagreed with the
associated questioned costs. LANWT management identified steps it was taking
in response to the other issues in the OIG’s audit report.

The OIG viewed most of LANWT management’s comments as nonresponsive to
the issues raised in the report. The unresolved issues, along with questioned
costs of $188,522 for the imported Italian stone and $41,195 for inadequately
supported contract expenditures, were forwarded to LSC management for action.
The grantee is working with LSC to establish LSC’s reversionary interest in the
new building. The grantee has also completed the transcription of minutes for all
meetings held in 2008.


Audit of Legal Services Corporation’s Consultant Contracts

The OIG initiated an audit to determine whether LSC management had
appropriate internal controls in place over consultant contracts, whether such
controls were properly followed, and whether consultant contracting actions were
in compliance with applicable laws, regulations, and LSC policies and
procedures.

The OIG found that LSC may have entered into independent contractor
agreements with individuals who should have been classified as employees
under IRS rules. As a result, LSC could be liable for fines and penalties, as well
as additional payments to workers.

The OIG also found that while controls over consultant contracts were in general
adequately designed, key controls were not adhered to, and written policies and
procedures over the consultant contracting process were not regularly followed,
resulting in instances of noncompliance. The OIG reported that LSC needs to
strengthen internal controls over consultant contract actions by documenting
contracting decisions, evaluating contract alternatives, and establishing
procedures to monitor contractor compliance with contract provisions.

On the issue of the possible misclassification of contractors for tax purposes, the
report documented a history going back to 1992 in which questions and concerns
were raised on multiple occasions by LSC’s general counsel, by the OIG, and by
independent auditors as to the need to address and properly resolve the issue.


                                        4
Management was advised, at various times: (1) by its counsel – that counsel
could not concur in LSC’s treatment of all its consultants as independent
contractors; that it should consult with the IRS regarding the proper tax treatment
of these individuals; and that these consultants generally are more properly
classified as temporary employees and should be treated as such by LSC for tax
purposes; (2) by the OIG – that LSC needed to review its practices with respect
to classification of independent contractors to ensure that they complied with the
Internal Revenue Code; and (3) by its independent public accountants in the
corporation’s FY 2008 financial statement audit report – that LSC has not taken
appropriate steps to ensure it is in compliance with the law or can sufficiently
support the position it has taken. Notably, one of the independent accountants’
recommendations was precisely the same as that made by LSC’s general
counsel in 1993: to utilize the IRS procedure (via form SS-8) specifically
designed for the purpose of obtaining an IRS determination on this issue, “to
ensure that LSC is fully compliant with this area of the Internal Revenue Code.”

Notwithstanding this history, the OIG’s July 2009 report noted that LSC continued
to make decisions to classify workers as independent contractors rather than
employees without appropriately documenting the rationale for its decision. This
is not an inconsequential matter: the report noted that in a recent two-year
period LSC entered into some 200 independent contractor agreements, the type
that may have been improperly classified under IRS rules.

The OIG recommended that LSC management expeditiously resolve the issue of
the status of LSC consultants as independent contractors versus temporary
employees or seek an administrative determination from the IRS of the proper
classification treatment.

The OIG also made a variety of recommendations to strengthen controls and
ensure compliance with LSC policies and procedures. Specifically, the OIG
recommended that LSC clearly document contract decisions in contract files;
implement policies and procedures that require an annual acquisition plan;
develop procedures to ensure that LSC contractors are not receiving
compensation from an LSC-funded source when providing consulting services;
provide a clear description of what should be documented in a justification for not
awarding consultant contracts competitively; require that all proposed consultant
contracts be approved by the general counsel and the comptroller’s office;
evaluate and consider adding to the list of required information for all contracts
items such as an integration clause and information on representations and
warranties; require that the Contract Approval Form be used for all proposed
consultant contracts; require that a review process be implemented that ensures
contracts are properly executed before purchase orders are issued; specify the
consultant contract-related records that need to be maintained in contract files
and identify the office(s) that should maintain these records; provide training on
the policies and procedures after they have been revised; and require periodic



                                        5
reporting to the LSC President of all consultant contracts executed along with the
Comptroller’s certification that procedural sufficiency has been attained.

LSC management comments indicated that action will be taken on all
recommendations. Management also noted in its comments that the report did
not question any costs.

The OIG considers 10 of the report’s 13 recommendations open, pending receipt
and evaluation of further information from management clarifying or
substantiating their intended actions. While LSC management's comment that
the report questioned no costs is accurate, the relevant cost issue is not what
was spent in the past, but what must be spent in the future to correct any
misclassifications.

Since the report was issued, LSC management determined that some individuals
who were classified as independent contractors should have been classified as
temporary employees and that it now intends to modify those classifications.
LSC management is attempting to quantify the financial impact of misclassifying
these individuals. Management stated it intends to have all modifications made
as of the close of this reporting period.


Peer Review

Audit organizations performing audits in accordance with Government Auditing
Standards must have an external peer review performed at least once every
three years by independent reviewers. Within the federal Inspector General
community, the Council of Inspectors General for Integrity and Efficiency
facilitates this requirement by scheduling IG audit functions to receive and
conduct peer reviews. During this reporting period, the OIG conducted a peer
review of another IG’s audit function and issued the final report. The OIG’s
recommendations were adopted by the reviewed organization, which also
expressed appreciation for our work and noted the findings and
recommendations would enable it to improve its audit quality control system.


FY 2009 Corporate Audit

During this reporting period the OIG competitively selected an independent public
accounting firm to conduct LSC’s Fiscal Year 2009 corporate audit. The
accounting firm held its entrance conference on the audit with the chairman of
the LSC Board’s audit committee, LSC management, and OIG staff in September
2009. The OIG will be monitoring the progress of the audit and the work of the
auditors throughout the course of the audit.




                                        6
Audit Reports

     Open at beginning of reporting period………….……….………..6

     Issued during reporting period……………………………..……...2

     Closed during reporting period…………………………....….…...2

     Open at end of reporting period…………………………….….….6


Recommendations to LSC Grantees

     Pending at beginning of reporting period……………….………..17

     Issued during reporting period………………………………….......6

     Closed during reporting period……..............................................3

     Pending at end of reporting period…………………………….….20


Recommendations to LSC Management

     Pending at beginning of reporting period ………………………….1

     Issued during reporting period……………………………………..13

     Closed during reporting period………………………………………3

     Pending at end of reporting period………………………………...11




                                             7
                           Oversight of IPA Audits



Independent Audits of Grantees


Since 1996, LSC’s annual appropriations acts have required that each person or
entity receiving financial assistance from the Corporation be subject to an annual
audit to be conducted by an independent public accountant (IPA). Each grantee
contracts directly with an IPA to conduct the required audit in accordance with
generally accepted government auditing standards, and the OIG Audit Guide for
Recipients and Auditors and Compliance Supplement, which incorporates some
requirements of OMB Circular A-133.

While these audits are not performed by the OIG, the OIG does provide guidance
to the IPAs and grantees and oversees the IPA process. The OIG’s oversight of
the IPAs consists mainly of two activities: the OIG (1) conducts a desk review of
all IPA reports issued to grantees, and (2) conducts reviews of selected IPAs’
documentation supporting the conclusions expressed in their reports. Reviews of
supporting documentation are usually conducted at the office of the IPA. The
purpose of both reviews is to ensure that the IPAs’ work is conducted in
accordance with the instructions issued by this office and determine whether the
work meets applicable professional standards. The OIG issued two such reviews
this reporting period.


Follow-up Process


LSC’s annual appropriations acts have specifically required that LSC follow-up
on significant findings identified by the IPAs and reported to the Corporation’s
management by the OIG. The desk reviews of IPA reports performed by the OIG
serve to identify significant IPA findings requiring follow-up by LSC management.
IPA audit reports are submitted to the OIG within 120 days of the close of the
grantee’s fiscal year end. The OIG reviews each report and refers appropriate
findings and recommendations to LSC management for follow-up.                LSC
management ensures that grantees submit corrective action plans for all material
findings, recommendations, and questioned costs identified by the IPAs and
referred by the OIG to management.

After corrective action has been taken by the grantee, LSC management advises
the OIG and requests that the finding be closed. The OIG reviews management’s
request and decides independently whether it will agree to close the finding.




                                        8
Review of Grantees’ Annual Audit Reports: IPA Audit Findings

In order to provide more complete information in our semiannual reports to
Congress, we include a summary of significant findings and the status of follow-
up on significant findings reported by the IPAs as part of the grantee oversight
process. The audit reports and the findings identified below reflect the work of the
IPAs, not the OIG.

During the reporting period, the OIG reviewed 116 IPA audits of grantees with
fiscal year ends of December 31, 2008 through July 31, 2009. These audit
reports contained 52 findings. The OIG determined that 13 findings were not
significant and closed the findings. Of the remaining findings, 38 were referred to
LSC management and one finding was assigned for review within the OIG. The
tables below present information on the findings referred to management this
period (grantees with fiscal years ending December 31, 2008 through March 31,
2009). The OIG also uses these reports to aid in planning for audits,
investigations, and other reviews.


Summary of Findings Reported in Grantee Financial Statement Audits

       Total Number of Findings Referred ....................................... 38
       Number of Findings with Corrective Action Accepted
       By LSC Management ..............................................................6
       Number of Findings Awaiting LSC Management Review ...... 32




Types of Findings Referred to LSC Management for Follow-up

                                  Category                                   Number of Findings

       Missing documentation ......................................................... 15
       Weaknesses in Financial Transactions and Reporting.......... 11
       Regulatory Compliance Issues................................................ 6
       Policies and Procedures.......................................................... 3
       Internal Control Related .......................................................... 3
       TOTAL……………………………………………………………..38




                                                    9
                            INVESTIGATIONS

The OIG opened 18 investigations during this reporting period. These included
10 criminal investigations, four compliance matters, and four fraud vulnerability
assessments. The criminal investigations included allegations of counterfeited
checks, fraudulent claims, and thefts of cash and property from LSC programs.
The compliance investigations included allegations of violations of LSC statutes
and regulations involving matters such as retaliation and outside practice of law.

During the reporting period the OIG closed 24 investigations. These included 12
criminal investigations, six compliance matters, and six fraud vulnerability
assessments. The OIG also issued five Inspector General subpoenas in
connection with an ongoing investigation.

One conviction was obtained during the period, as described below.


Former Program Employee Convicted

On April 23, 2009, the subject of an OIG investigation was convicted of mail fraud
on a plea of guilty to one count of a seventy-three count federal indictment. The
indictment and conviction were based on the subject’s fraudulent activities over a
period of several years while employed as an administrative assistant at an LSC
grantee. Overall, the employee stole more than $20,000 from the program and
from scores of its clients. Sentencing is scheduled for November 12, 2009.
Under the terms of the plea agreement, in addition to fines and imprisonment (to
be determined, subject to a cap, at the time of sentencing), the subject agreed to
make full restitution to all victims identified in the government’s disclosure. The
OIG previously issued a fraud alert to all grantee Executive Directors to highlight
the issues and potential vulnerabilities identified by this case.


Grantee Improperly Accepted Attorneys’ Fees

A grantee improperly collected over $2 million in attorneys’ fees in violation of 45
C.F.R. Part 1642 which prohibits grantees from claiming or collecting and
retaining attorneys’ fees.     The OIG conducted an investigation into the
circumstances under which the grantee collected attorneys’ fees and confirmed
that the grantee requested attorneys’ fees, which were awarded by the trial court.
Before the fees were collected, however, the case was appealed, the grantee
withdrew, and without the grantee’s knowledge the former clients as part of the
overall settlement negotiated $2 million in attorneys’ fees for the grantee. The
grantee was ordered to divest the funds and agreed to not seek LSC funding for
five years.



                                        10
                    Proactive and Preventive Initiatives


Fraud Awareness Briefing Program

One of the fundamental responsibilities of the OIG is to reduce the opportunities
for committing fraud. Anti-fraud professionals know that the best way to deal with
fraud is to prevent it from happening in the first place. There are any number of
ways to try to prevent fraud, including establishing and adhering to adequate
internal controls and setting the right “tone at the top.”

Many individuals, however, do not deal with fraud prevention on a regular basis,
and, while generally aware of fraud, they are not aware of the potential for fraud
in their own organizations. At the OIG, we not only have expertise in detecting
and investigating fraud involving LSC funds, but also have the experience to
show that fraud affects LSC-funded programs more than people might imagine.
Many people mistakenly think that if there is fraud at all, the fraud must be
minimal. In fact, LSC-funded programs have been victimized by frauds involving
many thousands of dollars.

In order to increase awareness of the potential for fraud in LSC programs and
operations, this reporting period the OIG initiated a Fraud Awareness Briefing
Program. Our first presentation was made on June 15, 2009 to a joint session of
LSC grantees in Pennsylvania. We subsequently conducted fraud awareness
briefings for legal services programs in Alabama, Rhode Island, Massachusetts,
Michigan, and California.

LSC grantees are invited to request a Fraud Awareness Briefing for all of their
staff at a time and place convenient to the grantee. The grantees are generally
not chosen because of any particular concern about the program, and the
grantees visited so far have been very responsive to the OIG.

The Fraud Awareness Briefing is a presentation by experienced OIG
investigators accompanied by a brief video from the Association of Certified
Fraud Examiners (ACFE). The presentation covers topics including who
commits fraud, why people commit fraud, how fraud can be prevented, how fraud
can be detected, and what to do if fraud is suspected. The ACFE video provides
a real-life look into the impact fraud can have not only on the victim but also on
the person who commits the crime. In order to bring the point “close to home,”
the investigators describe the various types of fraud schemes that have been
perpetrated against LSC grantees, in many cases by their own staff members.
Fraud Awareness Briefings provide an opportunity for attendees to ask questions
and make suggestions regarding ways to prevent fraud. The OIG’s Fraud
Awareness Briefings have been uniformly well-received and will continue to be
offered to any LSC grantee interested in participating in this initiative.



                                       11
Fraud Vulnerability Assessments

During this reporting period the OIG completed two fraud vulnerability
assessments (FVAs) initiated during the prior period and four new FVAs. The
FVAs consist of a focused document review in areas identified as weak or prone
to abuse; a review of grantee internal control policies versus practices; and most
often also include a fraud awareness briefing to the grantee’s executive director
and chief financial officer. These reviews help surface both existing and potential
problem areas; improve managers’ awareness of their fiscal responsibilities; and
serve as a deterrent by making staff aware that all LSC funds are subject to
review.

The six FVAs completed during this reporting period found no indicators of on-
going fraud. During one FVA the OIG was advised that an attorney employed by
the grantee stole approximately $150 from a client. The attorney’s employment
was terminated and the grantee referred the matter to the local district attorney.
The grantee advised that the matter was not reported earlier to the OIG because
the amount was under the $200 grant assurance threshold for reporting to the
OIG.

Past OIG investigations at grantee sites involved funds stolen from petty cash,
and fraudulent activity involving travel and mileage expenses, credit card
accounts, payroll/salary advances, and grantee vendor accounts. Reviews of the
programs affected often disclosed that while the nominal internal control policies
appeared adequate for the size of the program, a breakdown in following those
policies and applying the controls facilitated the embezzlements. By briefing
grantee managers on indicators of and any potential vulnerability to fraud and
embezzlement, the OIG hopes to assist them in detecting early warnings of such
problems.


Identity Theft

LSC grantees are not immune from identity theft. During the reporting period two
grantee programs reported thefts of funds as a result of identity theft. In one
situation, an e-mail attachment was opened by a program employee, believing it
was a genuine message from a well-known shipping company. The attachment
contained a virus designed to capture confidential information, resulting in
multiple fraudulent fund transfers from the program’s bank account. The OIG
advised the program that it was victimized by a nationwide scam that was being
investigated by federal law enforcement. At a second program, a client who had
already collected his share of a settlement used copies of stolen identity papers
to fraudulently collect another client’s share.




                                        12
Preventing Laptop Computer Theft

In keeping with their responsibility to report thefts of $200 or more to the OIG,
LSC grantees often report the theft of laptop computers. During this six-month
reporting period, OIG received reports from five programs about laptop theft.
Laptop theft continues to be the most frequently reported type of incident by LSC
grantees. Laptop theft and loss is a serious risk. In addition to the cost of
replacement, laptops of legal service providers generally contain confidential
client information and other sensitive personal or business information. The theft
or loss of a laptop can also disrupt and adversely affect work production.

To help address the continuing problem of laptop theft, the OIG developed “An
OIG Guide for LSC-Funded Programs: How to Prevent Computer Laptop Theft
or Loss.” The Guide was sent to all programs (and re-sent to those reporting
thefts), informing them about simple steps that can be taken to prevent laptop
theft and sharing best practices, such as storing all data on servers, not laptops,
and using the laptops as “dummy” terminals. The Guide is another example of
recent proactive OIG efforts to help programs prevent fraud and loss.


Hotline

The OIG maintains a Hotline for reporting illegal or improper activities by LSC
grantees or Corporation staff. For this reporting period, the OIG received 72
Hotline contacts (compared to 46 the previous reporting period). Of these
matters, 13 were referred to LSC's Office of Compliance and Enforcement for
follow-up; eight were opened as investigations; one is open pending further
inquiry; and the remaining matters were closed after review and, where possible,
response to the Hotline complainant.

Over the past year we have worked both to improve Hotline operations and to
increase awareness of the Hotline throughout LSC and the grantee community.
We can report that quantitatively overall OIG Hotline activity increased by over
56% over the last period (which itself represented an increase of 70% over the
preceding period). Hotline contacts for the current period when compared to the
same time frame one year ago represent an increase of 167% (72 vs. 27). More
importantly, qualitatively we have been receiving more calls resulting in
investigations and fewer calls relating to requests for legal services, which
previously represented the largest number of callers.




                                        13
INVESTIGATIVE CASES

    Open at beginning of reporting period…………..24

    Opened during reporting period………………….18

    Closed during reporting period…………………...24

    Open at end of reporting period………………….18


PROSECUTORIAL ACTIVITIES

    Referred for prosecution…………………………...0

    Accepted for prosecution…………………………..0

    Declined for prosecution…………………………...0

    Indictments…………………………………………..0

    Convictions…………………………………………..1


INVESTIGATIVE ACTIVITIES

    Inspector General subpoenas issued…………….5




                                 14
                            LEGAL REVIEWS


Review of Proposed Legislation, Regulations and Policy

Pursuant to the IG’s statutory responsibilities, the OIG reviews and, where
appropriate, comments on statutory and regulatory provisions affecting LSC
and/or the OIG, as well as LSC interpretive guidance and internal policies and
procedures.

During this period, the OIG reviewed and, where appropriate, provided
comments on legislative, regulatory, and policy matters. The more significant
items are discussed below.

The OIG provided comments to the Senate Committee on Health, Education,
Labor, and Pensions concerning S. 718, the Civil Access to Justice Act of 2009,
which is currently pending in the United States Senate. The comments
recognized that the bill proposed useful reforms that would strengthen LSC and
its grantees, but also expressed concern that a number of its provisions would
undermine the OIG’s effectiveness in key areas. Specific areas of concern
included provisions that would weaken the OIG’s oversight role in grantee audits;
that would effectively deprive LSC funds of their Federal character for purposes
of statutes governing the proper expenditure of Federal funds; and that would
limit the OIG’s access to grantee records. We noted the proposed changes were
particularly troubling in light of recent GAO recommendations for improving and
strengthening governance, oversight, and accountability at LSC and its grantees.
We commented that in these respects, as well as others cited in the letter, S. 718
runs directly counter to the intent of Congress, as expressed in the recently-
enacted Inspector General Reform Act of 2008, to enhance the authority of
Federal Inspectors General to root out waste, fraud, and abuse in Federally-
funded programs. As the period closed we began working with Congressional
staff and participated in a number of briefings addressing these and other issues
regarding the bill.

As previously reported, the OIG had issued an advisory memorandum informing
the LSC Board that it appeared to be violating the Government in the Sunshine
Act, as well as LSC regulations, by holding portions of its meetings concerning
the LSC President’s performance evaluation and contract renewal in closed
session; by not maintaining the transcripts of the closed session meetings at the
Corporation; and by not making the transcripts promptly available to the public.
As of the close of the reporting period, LSC had changed its practice as to where
it maintained the closed meeting transcripts, transferring them to the
corporation’s headquarters; however, the other issues remain unresolved.




                                       15
The OIG also participated in the annual update of LSC’s grant assurances,
submitting comments and suggested revisions.


Litigation Activities

As noted in previous Semiannual Reports, in 2006 the OIG issued an interim
report on the activities of California Rural Legal Assistance (CRLA), finding
substantial evidence that CRLA had violated federal law and regulations
governing LSC grantees. The OIG could not complete its investigation due to
CRLA’s refusal and/or failure to respond to a request for information LSC
grantees are required to provide under the terms of their grants. The OIG issued
a subpoena seeking information relevant to the investigation.

In March 2007, the U.S. Department of Justice, on behalf of the OIG, filed a
subpoena enforcement petition in the United States District Court for the District
of Columbia. In August 2008, following resolution of a number of procedural
issues, the district court heard arguments on the petition. At the request of the
district court, the parties subsequently agreed to attempt to resolve their
differences through mediation. Although mediation proved unsuccessful, in April
2009 the LSC OIG submitted to the court additional briefing regarding a proposal
to resolve all outstanding issues in the enforcement proceeding. As of this date,
the subpoena enforcement action remains pending as the parties await the
court’s ruling on the OIG’s proposal and all outstanding legal issues in the case.
(We note that just after the close of this reporting period, on October 6, 2009, the
district court ordered the parties to brief the question whether the case should be
transferred to the Northern District of California pursuant to 28 U.S.C. §1404.)


Other Activities

During this reporting period, the OIG responded to four Freedom of Information
Act requests. OIG counsel produced seven formal legal opinions during the
period and provided training to OIG staff regarding statutory restrictions on
grantee activities.




                                        16
                       OTHER OIG ACTIVITIES


Congressional Requests
In response to a request from the Ranking Member, Senate Committee on
Finance, the OIG provided a follow-up report on LSC travel outside the
continental United States (OCONUS). The OIG reviewed the completeness and
accuracy of LSC’s responses to earlier Congressional requests; the
completeness and accuracy of LSC’s travel documentation records overall,
including determining the level of compliance with established policies and
whether expenditures were allowable and appropriate; the accuracy of travel
expense reports; and any OCONUS travel sponsored by third parties.

The OIG reviewed all available documentation for a data sample of 65 trips
covering the period 1998-2008. Our report noted that while LSC’s submissions
were generally responsive to the respective Congressional requests, each
submission failed to include information about specific OCONUS trips by LSC
staff or Board members. We reported that information on the relevant trips was
available in LSC’s travel files and that we could not find information explaining
why it was not submitted as requested.

In reviewing both the relevant travel records from LSC’s earlier submissions, as
well as records from our review of travel for the period, the OIG found that the
great majority of the internal travel expense reports reviewed were accurate.
There were a few instances in which direct billing expenditures such as flights
and lodging were not included on the expense reports, however recent
improvements in LSC’s accounting system and procedures led us to conclude
that it was unlikely the omission of direct-billed expenditures would continue.

We identified one instance not previously reported to Congress where an
OCONUS trip by an LSC officer was sponsored and paid for in part by a third
party.

Finally, we noted that in recent years, LSC had progressively strengthened its
policies through alignment with the federal travel guidelines as well as
implementation of direct billing and tracking procedure improvements. The most
recent records reviewed were accurate and largely complete, and reflected
compliance with advance approval procedures. We reported that overall, LSC’s
policies and procedures for OCONUS travel appeared sound and without
significant systemic problem.

(While not part of our report to the Ranking Member, we do note that effective
October 1, 2009, LSC again revised its business travel policies to further



                                       17
strengthen procedures to provide greater accounting clarification and improved
controls in this area.)


Board of Directors Support

The OIG developed a new Board Reference Library containing a variety of
information resources, primarily related to the background and functions of the
OIG. Included are materials covering the history of the IG Act, the statutory
authorities and responsibilities of the OIG, organizational structure, staffing, and
planning materials, key OIG and GAO reports, information and guidance on
nonprofit corporate governance, and links to LSC’s statutes and regulations. The
library is available online and will be maintained permanently as a
training/orientation aid for new LSC Board members and as an ongoing
reference resource for the Board.


Information Services Contracting

During the period, the OIG completed the process for competitively awarding an
information technology services contract to upgrade aging IT systems and
improve the OIG’s ability to use grantee information in work planning and
operations, thus improving overall interoperability.


Professional Assistance

The OIG provided assistance to the newly formed Council of the Inspectors
General on Integrity and Efficiency (CIGIE) in its efforts to develop and refine
planning, internal structure and processes, and administrative support functions
for the organization. Additionally, the OIG responded to numerous CIGIE
surveys.


GAO Support and Coordination

During the period, GAO initiated its third review of LSC operations in the last two
years. The OIG has coordinated with and provided support and assistance to
GAO in the conduct of each of its reviews.




                                        18
                                               TABLE I

                            AUDIT REPORTS ISSUED
                   for the Period Ending September 30, 2009



                                             Date           Questioned   Funds Put to   Unsupported
Report Title                                Issued            Costs       Better Use       Costs

Audit of LSC’s Consultant Contracts         07/07/09              $0          $0            $0


Reports on Selected Internal Controls:
Legal Aid of Northwest Texas                08/10/09         $188,522         $0          $41,195




                        AUDIT SERVICE REVIEWS ISSUED
                      for the Period Ending March 31, 2009

                                                                                         Date
       Recipient                                            IPA                         Issued

       Northwest Justice Project                Moss Adams, LLP                         07/21/09

       Central Virginia Legal Aid Society       Larry Saunders & Associates             09/24/09




                                                       19
                                                  TABLE II
             Audit Reports Issued with Questioned Costs
                for the Period Ending September 30, 2009

                                                               NUMBER
                                                                 OF    QUESTIONED UNSUPPORTED
                                                               REPORTS   COSTS       COSTS

    A. For which no management decision                            2            $352,3081                  $0
            has been made by the
            commencement of the reporting
            period.

    B. Reports issued during the reporting                         1            $229,7172                  $0
           period

            Subtotals (A + B)                                      3            $582,025                   $0

    LESS:

    C. For which a management decision was                         0                 $0                    $0
            made during the reporting period:

            (i) dollar value of                                    0                 $0                    $0
                recommendations that were
                agreed to by management

            (ii) dollar value of recommendations                   0                 $0                    $0
                  that were not agreed to by
                  management

    D. For which no management decision                            3            $582,025                   $0
            had been made by the end of the
            reporting period

    E. Reports for which no management                             2            $352,3081                  $0
    decision had been made within six
    months of issuance


1
  On February 20, 2009, the OIG referred to LSC management questioned costs in the amount of $273,054 found in the
audit, Report on Selected Internal Controls – Legal Aid and Defender Association, Inc. On March 31, 2009, the OIG
referred to LSC management $79,254 in questioned costs found in the audit, Report on Selected Internal Controls –
California Indian Legal Services. These two issues of questioned costs await resolution.
2
 On August 12, 2009 the OIG referred to LSC management questioned costs in the amount of $229,717 found in the
audit, Report on Selected Internal Controls – Legal Aid of Northwest Texas. This issue of questioned costs remains open.




                                                          20
                                        TABLE III


  Audit Reports Issued with Funds to Be Put to Better Use
               for the Period Ending September 30, 2009



                                                         NUMBER OF   DOLLAR
                                                          REPORTS     VALUE

A. For which no management decision has been made            0         $0
        by the commencement of the reporting period.


B. Reports issued during the reporting period                0         $0


        Subtotals (A + B)                                    0         $0
LESS:

C. For which a management decision was made                  0         $0
        during the reporting period:

        (i) dollar value of recommendations that were        0         $0
             agreed to by management
        (ii) dollar value of recommendations that were       0         $0
                  not agreed to by management

D. For which no management decision had been made            0         $0
        by the end of the reporting period


F. Reports for which no management decision had              0         $0
       been made within six months of issuance




                                                21
                                             TABLE IV


            Audit Reports Issued Before This Reporting Period
               For Which No Management Decision Was Made
                        By The End Of The Reporting Period


                                                    Date     Questioned
                 Report Title                      Issued      Costs

FY 2008 LSC Corporate Audit                       01/28/09     $0         Awaiting management’s
                                                                          final actions to correct
                                                                          misclassifications of
                                                                          temporary employees as
                                                                          consultants.

Report on Selected Internal Controls Legal Aid    02/05/09    $273,054    Awaiting final decision on
and Defender Association, Inc.                                            questioned costs.

Report on Selected Internal Controls California   03/27/09    $79,254     Awaiting final decision on
Indian Legal Services                                                     questioned costs.

Report on Selected Internal Controls Legal        12/11/08       $0       Grantee’s request for
Services New York City                                                    extension to December
                                                                          2009 approved to allow
                                                                          more time to develop
                                                                          adequate cost allocation
                                                                          system.




                                                   22
                                             TABLE V


                      Index to Reporting Requirements
                              of the Inspector General


   IG ACT
 REFERENCE*                               REPORTING REQUIREMENT                                PAGE

 Section 4(a)(2)     Review of legislation and regulations                                      15

 Section 5(a)(1)     Significant problems, abuses, and deficiencies                             3-6

 Section 5(a)(2)     Recommendations with respect to significant problems, abuses, and          3-6
                     deficiencies

 Section 5(a)(3)     Prior significant recommendations on which corrective action has not      None
                     been completed

 Section 5(a)(4)     Matters referred to prosecutive authorities                               None

 Section 5(a)(5)     Summary of instances where information was refused                        None

 Section 5(a)(6)     List of audit reports by subject matter, showing dollar value of           19
                     questioned costs (including a separate category for the dollar value of
                     unsupported costs) and funds to be put to better use

 Section 5(a)(7)     Summary of each particularly significant report                            3-6

 Section 5(a)(8)     Statistical table showing number of audit reports and dollar value of      20
                     questioned costs

 Section 5(a)(9)     Statistical table showing number of reports and dollar value of            21
                     recommendations that funds be put to better use

Section 5(a)(10)     Summary of each audit issued before this reporting period for which no     22
                     management decision was made by the end of the reporting period

Section 5(a)(11)     Significant revised management decisions                                  None

Section 5(a)(12)     Significant management decisions with which the Inspector General         None
                     disagrees

*Refers to sections in the Inspector General Act of 1978, as amended.




                                                   23
OFFICE OF INSPECTOR GENERAL
           HOTLINE

IF YOU SUSPECT

     FRAUD INVOLVING LSC GRANTS OR OTHER FUNDS
     WASTE OF MONEY OR RESOURCES
     ABUSE BY LSC EMPLOYEES OR GRANTEES
     VIOLATIONS OF LAWS OR LSC REGULATIONS


PLEASE CALL OR WRITE TO US AT

    PHONE        800-678-8868 OR 202-295-1670
    FAX          202-337-7155
    E-MAIL       HOTLINE@OIG.LSC.GOV
    MAIL         P.O. BOX 3699
                 WASHINGTON, DC 20027-0199


 UPON REQUEST YOUR IDENTITY WILL BE KEPT CONFIDENTIAL.
          REPORTS MAY BE MADE ANONYMOUSLY
